<html>
<title> - RUSSIA: COUNTERTERRORISM PARTNER OR FANNING THE FLAMES?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





        RUSSIA: COUNTERTERRORISM PARTNER OR FANNING THE FLAMES?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2017

                               __________

                           Serial No. 115-75

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-512PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
Vacant


     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
F. JAMES SENSENBRENNER, Jr.,         WILLIAM R. KEATING, Massachusetts
    Wisconsin                        DAVID N. CICILLINE, Rhode Island
FRANCIS ROONEY, Florida              ROBIN L. KELLY, Illinois
BRIAN K. FITZPATRICK, Pennsylvania





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Colin P. Clarke, Ph.D., political scientist, RAND Corporation....     8
Svante Cornell, Ph.D., senior fellow for Eurasia, director of the 
  Central Asia-Caucasus Institute, American Foreign Policy 
  Council........................................................    20
Mr. Simon Saradzhyan, director of the Russia Matters Project, 
  assistant director of U.S.-Russia Initiative to Prevent Nuclear 
  Terrorism, Belfer Center for Science and International Affairs, 
  Harvard Kennedy School.........................................    34
Michael Carpenter, Ph.D., nonresident senior fellow, Dinu 
  Patriciu Eurasia Center, Atlantic Council, senior director of 
  the Biden Center for Diplomacy and Global Engagement, 
  University of Pennsylvania.....................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Colin P. Clarke, Ph.D.: Prepared statement.......................    11
Svante Cornell, Ph.D.: Prepared statement........................    23
Mr. Simon Saradzhyan: Prepared statement.........................    36
Michael Carpenter, Ph.D.: Prepared statement.....................    49

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Prepared statement..............    88

 
        RUSSIA: COUNTERTERRORISM PARTNER OR FANNING THE FLAMES?

                              ----------                              


                       TUESDAY, NOVEMBER 7, 2017

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:16 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the Subcommittee on Terrorism, Nonproliferation, 
and Trade) presiding.
    Mr. Poe. The subcommittees will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record, subject to 
the length limitation in the rules. I will now recognize myself 
for 5 minutes in my opening statement.
    The purpose of this hearing is to unmask Putin's two-faced 
game in the fight against terrorism. In 2015, Russia began a 
military intervention in Syria claiming it was waging war on 
ISIS and international terrorism.
    To some, this was welcome news. It seemed that there may be 
a rare moment of cooperation between former Cold War foes. 
Moscow and Washington would be able to work together to combat 
terrorism.
    This was fantasy. Moscow's actions in Syria has shown it is 
more interested in saving the brutal Assad regime than fighting 
ISIS.
    To accomplish this goal, the Kremlin partnered with Iran 
and its terrorist proxies to suppress Syrians calling for 
democracy. While Moscow certainly has killed some known 
terrorists and helped reduce territory controlled by ISIS, it 
has also strengthened other terrorists. Its reckless methods 
and support for Assad the butcher destroyed any chance of 
Russia being an effective counterterrorism partner with us.
    Russia's indiscriminate bombing has targeted hospitals, 
schools, convoys, and rescue crews, like the heroic White 
Helmets. Its campaign of terror drove once moderate Syrians to 
embrace extremist groups that also fight Assad and his backers.
    Despite our success in retaking key ISIS strongholds, 
Russian officials claim the U.S. supports ISIS and consistently 
threatens our forces in Syria.
    Meanwhile, new Russian-made military equipment is 
increasingly showing up in the hands of Iranian-backed 
terrorist groups like the notorious Hezbollah.
    Even more dangerous, Russia is effectively carving an 
Iranian-controlled corridor that stretches from Tehran to the 
borders of Israel, threatening our valued ally Israel.
    Putin is laying the foundation for chronic instability in 
this vital part of the world. Moscow cannot be our partner so 
long as it continues to enable the terrorist state Iran, prop 
up Assad, arm Israel's foes, and contribute to the slaughter 
and misery of millions of Syrians.
    Syria is not the only place where the Kremlin is backing 
terrorism. Senior U.S. military officials have claimed that 
Russia is now arming its former enemies, the Afghan Taliban, 
providing them with machine guns and other medium-weight 
weapons.
    We also know that Putin has backed violent separatists in 
Ukraine and Georgia in his bloody quest to bully and conquer 
his neighbors. He arms thugs, inflaming ethnic tensions, and 
secretly sends his own soldiers, the little green men, across 
the border. Putin is destabilizing countries that aspire to 
have closer ties with the West.
    We should not be fooled. These separatists are not noble 
freedom fighters. Pro-Russian rebels in Ukraine have been 
accused by the U.N. of murder, kidnapping, and torture.
    In the last 16 months, these separatists have used car 
bombs to target Ukrainian security guards, journalists, and 
Kremlin critics, and they continue to ignore cease-fire 
agreements. They are terrorists of a different stripe, but like 
jihadists, they believe they can achieve their political goals 
through violence and political terrorism.
    This should be no surprise since their patron, the Kremlin, 
uses terror to maintain its own grip on power. Putin routinely 
orders the assassination of political opponents and journalists 
exposing his corruption. According to U.S. intelligence 
officials, at least 14 mysterious deaths are suspected to be 
linked to the Kremlin that occurred in the U.K. alone.
    Russian terrorism has even struck this city, the Nation's 
capital, Washington, DC. In 2015, Putin's former media czar 
came here to meet with our Justice Department and to discuss 
issues that were common to the United States and to what this 
individual had to say and share the inner workings of the 
Kremlin's propaganda machine.
    Mysteriously, he never made it to the meeting. Instead, he 
was found dead from blunt force injuries. Investigators ruled 
it an accident, but members of the FBI have claimed otherwise.
    This is unacceptable. The pattern of prominent Russians and 
Kremlin critics who end up dead under shady circumstances is 
impossible to ignore. The fact that Putin's terror has reached 
our shores should be taken seriously by Americans.
    Russia does have a serious Islamic problem, there should be 
no mistake about it. Since 1970, more than 3,500 Russians are 
believed to have been killed in over 800 terrorist attacks. 
Islamic radicals from Chechnya have conducted attacks across 
Russia, including the 2004 Beslan school massacre that murdered 
300 people. ISIS has also struck at Russia, blowing up a 
Russian charter plane over the Sinai in 2015.
    According to a recent report, Russia is the largest source, 
however, of foreign fighters in Syria and Iraq.
    With this shared threat, the United States and Putin should 
be able to be natural allies against terrorism--but Putin's 
brutal conduct and persistent ambition to rival the U.S. has 
made Russia a state sponsor of terrorism. Putin arms terrorists 
like the Taliban, Hezbollah, and thugs around the world so long 
as they advance his personal goals to undermine democracy and 
challenge America.
    It is time we see Putin for what he is. He is an 
international terrorist.
    And I will yield to the ranking member on the subcommittee, 
from Massachusetts, Mr. Keating, for his opening statement.
    Mr. Keating. Thank you, Mr. Chairman, for calling this 
hearing today on Russia and the question of whether Russia can 
be a reliable counterterrorism partner to the United States.
    It is important because what we are talking about are human 
lives at stake. These are our servicemen and -women overseas 
risking their lives to fight terrorism. These are our neighbors 
and loved ones. We just had an attack in New York City 1 week 
ago where eight innocent lives were taken.
    They are our children studying abroad, our friends, family 
members finally taking that trip to Europe where our allies 
have suffered far too many horrific terrorist attacks. They are 
the brave law enforcement and first responders who run toward 
the attack when everyone else is running away from it.
    Today we are here to talk about who we trust to protect the 
people we care about most. If we choose to partner with another 
country to fight terrorism we need to know we are fighting with 
the same people in mind and the same goals. I think we have all 
seen and were touched by the illustration after the attacks in 
Brussels last year that showed a tearful French flag comforting 
a tearful Belgian flag.
    A strong terrorism partner knows what is at stake and 
fights alongside you so that both countries can be safer. We 
have strong allies fighting terrorism. We have partners who we 
can trust with our intelligence and who, when we put our own 
men and women in harm's way to make us safer, do not actively 
undermine their safety and counteract their hard-fought efforts 
to reduce the threat of terrorism.
    So the question at hand today is, can Russia be one of 
those partners? Sure, there are instances where Russian self-
interest happens to intersect with ours, and absolutely we 
should continue working toward better deconfliction when our 
militaries are both operating in the same space.
    But that is not what makes a true ally. When you head into 
a foxhole together, it is pretty important you make sure you 
know the guy or gal who is in there with you.
    Well, Russia, Russia attacked the United States. Russia set 
out in a coordinated plan to undermine and influence our 
democracy, the very heart of what it means to be an American. 
The Russian Government, the very government this administration 
is arguing should be our partner on counterterrorism, did this 
through spreading lies, through actual attacks on our voting 
systems in 21 states. And as egregious as that is, it is not 
over yet.
    Allies do not attack each other. What we are uncovering as 
we learn more about the Russian efforts to infiltrate American 
social media is that their efforts are robust and they are 
calculated. This is not some random account here or there. This 
is a profound effort by a foreign country to attack the very 
underpinnings of our democracy and our right to live freely in 
it.
    These are attacks on our country, let's call it what it is, 
because when we look our servicemen and -women in the eyes, we 
should be completely honest about who we are trusting as 
partners to keep them and us safe.
    Pretty soon we will have been at war in the fight against 
terrorism for two decades. Within its first year in office this 
administration has signed the orders to send more troops to 
Afghanistan.
    Well, we have a crystal clear illustration of what it means 
to have Russia as a counterterrorism partner by looking at 
Afghanistan. As we send more of our own, our children, our 
spouses, our friends, off to fight for greater security and 
stability, Russia is quite literally counteracting our efforts 
through their support of the Taliban, and through the Taliban, 
al-Qaeda.
    This is not some tricky geopolitical, international 
relations game theory puzzle. This is a question of who is 
going to have our back when our women and men are in the field; 
who is going to work to minimize the resources we expend in 
this fight because we are fighting for the same goal of 
eliminating terrorism together.
    But Russia has time and time again been willing to risk the 
safety of our men and women in uniform, and through their 
apparently never-ending attacks on our democracy would rather 
undermine our stability and security and weaken us than work 
together with us to make a stronger counterterrorism partner.
    So we must ask, why are we convening this congressional 
hearing today? Well, we are asking this question because the 
President of the United States keeps giving the wrong answer, 
and we should be very concerned about his answer.
    We should be concerned that new discoveries in the Trump-
Russian investigations, like the Russian attacks on our 
democracy, keep coming to light. I believe the most recent 
numbers I have seen now: There are nine individuals with 
proximity to the now President who had contacts with Russia 
during the campaign and transition. There are indictments now 
in the special counsel's investigation into the campaign. And 
we seem to never stop learning about more concerning ties 
between Russia and this administration, including those still 
serving.
    We owe it to every victim of terrorism and to every 
individual we are working to ensure never becomes a victim of 
terrorism, we owe it to our servicemen and -women and every 
American that we represent here in Congress to be very careful 
when we choose who we are going to trust as a partner in 
fighting terrorism.
    Russia has failed time and time again to demonstrate it 
shares our goal of a safe and secure America. Frankly, it just 
doesn't add up how this administration can still be suggesting 
that Russia can be our partner in this fight when Russia is so 
intent on fighting us.
    I would like to thank the witnesses for joining us on this 
important topic.
    And, Mr. Chairman, I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    I will yield to Mr. Rohrabacher from California, who is the 
chairman of the Europe, Eurasia, and Emerging Threats 
Subcommittee, for his opening remarks.
    Mr. Rohrabacher. Yes, thank you, Chairman Poe, and thank 
you for initiating this hearing today. I am happy to be part of 
what I think will be an important discussion, even though I 
obviously disagree with everything that has just been said.
    In my subcommittee, I held a hearing on a similar topic 
just over 2 years ago. Since then, we have a new President in 
the White House who is, as we have just heard, genuinely 
interested to see if relations with Russia can be improved, as 
compared to the last 10 years of unrelenting hostility from the 
United States toward Russia.
    I believe that the fact that our President wants to seek 
out and try to see if there are areas we can actually cooperate 
in--I think that is a good thing. I think it is a positive 
development for both of our countries.
    It is significant that today is the 100th anniversary of 
the Bolshevik Revolution, a date which reminds us of the dark 
and bloody Soviet history. And I am proud that I played a 
significant part in the destruction of the Bolshevik regime 
that controlled the Soviet Union up until Ronald Reagan ended 
the Cold War as it should have been ended, peacefully, and 
reaching out to those people--and standing up, I might add, as 
well.
    In Afghanistan, which has been mentioned, I seem to 
remember who armed the Taliban. I seem to remember who armed 
and organized the Taliban, Pakistan and Saudi Arabia. Yet I 
have never heard so much volatileness that maybe the Russians--
I don't know what the Russians are doing in Afghanistan. I am 
going to be very interested in hearing our witnesses on that.
    So, although there are those who would treat Russia today 
as if it were still the Soviet Union, that period of time is 
now behind us, thank God. Although the flaws of the current 
Russian Government are evident, as we have heard some described 
in these last few moments, it behooves us to recognize that 
there has been a major change in what Russia was when it was 
the Soviet Union, a head of a Communist government that was 
seeking to create atheist dictatorships throughout the world. 
When Russia was the Soviet Union it was thus our primary enemy. 
One thing Ronald Reagan did is he prioritized: That is our 
primary enemy. What is the goal? Our goal is we win and they 
lose--they come down.
    Now that enemy today is no longer the Soviet Union and now 
it is Russia who is there, but it is not our primary enemy. 
Radical Islamic terrorism--we just heard that 3,500 Russians 
were killed by terrorist activity in the last decade, okay, 
that is a lot of people--so Islamic terrorism threatens both 
the United States and Russia. And we might add that we have 
heard the figure, the largest group of members in Syria of the 
ISIL and those groups that are fighting there come from 
Chechnya, Russia.
    No wonder there is something that tells the Russians they 
need to pay attention to this. But we should be working with 
them to try to create a more peaceful situation and defeat the 
radical Islamic terrorists that threaten both of us and are the 
basic problem in the Middle East.
    So I think there are great opportunities for cooperation, 
and they should not be passed up because of basically what I 
have seen as hostility, hostility, hostility toward any idea of 
cooperating with the Russians for the last 10 years.
    The fight against violent radical Islam is the major threat 
of our time. As we saw last week in the streets of Manhattan, 
the threat of radical Islam is pervasive. Radicalized Muslims 
have slaughtered innocents not just in the Middle East, but in 
Europe. And yes, as we have just heard, 3,500 in Russia--not 
counting the airplanes that were shot down over the Sinai 
Desert filled with Russian tourists.
    These terrorists have declared war on modern and Western 
civilization. The future of America and Russia and, yes, 
Western civilization depends on the defeat of this enemy.
    We have been in this spot before. We took on that threat to 
Western civilization. It was called Nazism, the Nazis. How did 
we defeat the Nazis? Yeah, we actually reached out to Joseph 
Stalin. Yeah, we defeated Nazism, and then we defeated 
Communism. And we will defeat radical Islam, but we have got to 
prioritize our effort and quit this, as I say, unrelenting 
hostility toward Russia and anybody who is their ally.
    In the aftermath of the Boston bombing in May 2013--and I 
will say that you went with me to that hearing, that meeting 
that we had in Moscow--we met with the Russian Government and 
with Russian intelligence officials to discuss the threat of 
terrorism. They actually gave us the documents that they sent. 
And they also gave us other documents that had they sent--had 
it been a more of a--I can't do an opening statement? Okay. 
Anyway----
    Mr. Poe. You can do an opening statement.
    Mr. Rohrabacher. But not longer. Okay. I will finish up.
    Let me just say, we were given an example of cooperation. 
Had we been cooperating at a heavy level at that time that we 
could have been doing we would have probably been able to stop 
that slaughter at the Boston Marathon. They had further 
information that would have alerted us to that.
    That is the type of thing we can do. That is the type of 
thing that we should be reaching out and trying to cooperate 
with, rather than simply trying to state what we believe is an 
analysis of the Russian wrongdoing, which some of this is very 
debatable.
    So with that said, thank you, Mr. Poe. Sorry I took so 
long.
    Mr. Poe. Thank you, Mr. Rohrabacher.
    The Chair yields to the ranking member, Mr. Meeks from New 
York. You have 5 minutes for your opening statement.
    Mr. Meeks. Thank you, Chairman Poe, for holding this 
hearing to provide us with an opportunity to discuss 
counterterror cooperation between the U.S. and Russia. And I am 
almost tempted to go off of what I wanted to say in listening 
to my good friend, the chairman of our subcommittee.
    Mr. Rohrabacher. We are buddies. Don't worry about it.
    Mr. Meeks. I am going to try to stay disciplined because I 
think that the facts as we look at them today and as we found 
from every--just about all of our intelligence sources that 
there are some other things that is going on in Russia.
    When you think about it, it is great that we are having a 
hearing now, particularly with the expert panel that we have, 
including people who have worked on U.S. policy to cooperate 
with Russia in an area of similarly mutual benefit, you would 
think, on common sense, maybe it makes sense. The timing is 
also perfect for us to debate the merits of potential 
cooperation in Syria, as well.
    So on the surface, yes, you can say you can see Russia as a 
potential partner in many areas--cultural issues, trade, for 
example--not only on counterterror efforts. And I am a firm 
believer, as many know, in multilateral efforts to solve the 
world's problems.
    However, it would be naive to promote a policy of 
cooperation in counterterror efforts without a sober 
understanding of today's Russia and the history of attempts to 
cooperate and establish clear goals that incorporate and 
leverage our allies across the globe.
    Russia faces a problem of internal extremism related to its 
history first of brutality suppressing the Chechnyans, Russian 
citizens, in the 1990s. Journalists who bravely investigated 
this were killed and the situation remains a cauldron for 
Moscow.
    This is where today's Russian leadership honed its 
counterterror strategy that it uses abroad today. The strategy 
can be seen on display in its scorched earth policies in Syria 
and the funneling of fighters from Chechnya to other areas of 
conflict in the region, including the Ukraine.
    Given the Kremlin's cooperation with the Iranians in Syria 
and its support for a larger Shia crescent, where can we find 
common interests? I don't know. If anything, in Syria we should 
call it deconfliction and not cooperation.
    Indeed, while the Obama administration moved forward with 
its reset policy, counterterror cooperation was on the table. 
Instead, there was a demonstrable lack of interest in deep 
cooperation from the Russian side. And I believe that some who 
will testify today, we will hear that from them, they will talk 
about that.
    We learned from the experience, however, about the motives 
of this cooperation. Any proposed cooperation would give the 
Kremlin cover for its indiscriminate bombing in Syria, and 
thereby stroke anti-American feelings in the region. It would 
put us then on the side of the Shias in Iran. Finally, it would 
give Russia generous inroads for its intelligence services--not 
as counterterror experts.
    So does this mean we stop talking to Moscow or looking for 
areas to cooperate? No, I don't think so. But let us recognize 
the unfortunate limitations of today's Kremlin. Let us put 
Putin's dreams of grand bargains to the side. Let us strive to 
promote peace by supporting our allies in the Middle East and 
Europe; let us not fall for the games.
    I agree. At one time I thought that, as Mr. Rohrabacher 
talked about, you are no longer the Soviet Union, we can do 
certain things. Well, clearly, that was not the opinion of Mr. 
Putin. And he has shown over and over by what has happened in 
the United States and what has been happening in Europe, and 
you talk to our European allies, that the areas of cooperation 
are very limited because what he wants to do is make you think 
one thing while they do something else.
    So, I look forward to honestly assessing the potential 
areas for cooperation with the Kremlin, and I look forward to a 
robust conversation with our esteemed panel to get a back and 
forth on this very important issue. And I yield back.
    Mr. Poe. I thank the gentleman from New York.
    Without objection, all witnesses' statements will be made 
part of the record. I ask that each witness limit their 
presentation to no more than 5 minutes. All members of both 
subcommittees have copies of your written testimony and had so 
before this hearing this afternoon.
    I will introduce each witness and give them time for their 
statements.
    Dr. Colin Clarke is a political scientist at the RAND 
Corporation where he focuses on terrorism, insurgency, and 
criminal networks. In addition, he is an associate fellow at 
the International Center for Counterterrorism and lecturer at 
the Carnegie Mellon University.
    Dr. Svante Cornell is the director of the Central Asia-
Caucasus Institute at the American Foreign Policy Council. He 
is also the cofounder of the Institute for Security and 
Development Policy in Stockholm.
    Mr. Simon Saradzhyan is the founding director of the Russia 
Matters Project at Harvard Kennedy School's Belfer Center for 
Science and International Affairs. He previously worked as a 
consultant and journalist in Russia for 15 years.
    Dr. Michael Carpenter is the senior director of the Penn 
Biden Center for Diplomacy and Global Engagement and a 
nonresident fellow at the Atlantic Council. Dr. Carpenter 
previously served in the Pentagon as a Deputy Assistant 
Secretary of Defense with responsibility for Russia, Ukraine, 
Eurasia, Balkans, and conventional arms control.
    Dr. Clarke, we will start with you. You have 5 minutes.

STATEMENT OF COLIN P. CLARKE, PH.D., POLITICAL SCIENTIST, RAND 
                          CORPORATION

    Mr. Clarke. Thank you, Chairman Poe and Ranking Member 
Keating, Chairman Rohrabacher and Ranking Member Meeks, and 
distinguished members of the subcommittee for inviting me to 
testify today.
    Throughout my testimony I will highlight the following 
areas. First, Russia's recent history with jihadist terrorism. 
Second, Russian counterinsurgency and counterterrorism tactics 
and strategy in the Caucasus. Third, the potential backlash 
from Russia's foray into Syria and its military campaign there. 
Fourth, what the future might hold for Russia now that ISIS' 
caliphate has collapsed. I will conclude with implications that 
Russia's struggle with jihadist terrorism has for the United 
States.
    On recent history, Russia's modern trouble with Islamic 
militancy dates back to the Soviet invasion of Afghanistan in 
1979. Throughout the former Soviet Union, as well as in areas 
like Chechnya and others along Russia's southern flank, civil 
war and conflicts raged, many of which were fueled by militant 
groups inspired by religion and active throughout the Caucasus 
in Central Asia.
    Even beyond the battlefields of the Caucasus, Islamic 
militants have launched many high profile attacks on Russian 
soil, including one specifically targeting transportation 
infrastructure.
    Militants have also conducted spectacular attacks, 
meticulously planned operations specifically designed to kill 
civilians and spread terror throughout the population, such as 
the Moscow theater hostage crisis in 2002 and the Beslan school 
siege in 2004.
    On Russian COIN and counterterrorism. During the first 
Chechnyan war--from 1994 to 1996--the Russian military followed 
a scorched earth policy of destroying everything in sight. 
Chechnya's capital, Grozny, was completely besieged by Russian 
artillery and indiscriminate bombing. Russian counterinsurgency 
strategy in the Caucasus has frequently employed zachistkas, or 
mop-up operations, designed to kill or capture terrorists and 
their supporters although noncombatants are often caught up in 
these sweeps. Other tactics have included forced 
disappearances, collective punishment, and the targeting of 
suspected insurgents' families, friends, and neighbors.
    This heavy-handed approach is myopic. It trades longer-term 
stability for short-term security as the domestic population in 
large swaths of the Caucasus has been traumatized by 
extrajudicial killings, torture, and widespread assassinations.
    In line with Russia's seeming refusal to even attempt to 
win hearts and minds, the insurgents' social, political, and 
economic grievances have largely been ignored; practically 
ensuring that future generations of militants will pick up the 
mantle of jihad.
    Russia's focus has been largely kinetic, as the military 
has relied on its capitation strategy to eliminate successive 
high-ranking insurgent military commanders over the years.
    On backlash from Syria--Russia has been one of the primary 
forces propping up the Assad regime, which has ruthlessly 
targeted its opponents, most of whom are Sunnis, with barrel 
bombs and chemical weapons.
    Russia and Iran are also deepening their political and 
military alliance as their respective militaries work together 
to help Assad reclaim pockets of territory from opposition 
forces. Russian special forces and warplanes serve as a force 
multiplier for Hezbollah fighters who have bloodied Sunni 
militants in battle. Moscow's desire to expand Russian 
influence in the Middle East has pitted it squarely against 
Sunnis and their interests.
    For Russia, the demographics are also daunting. There are 
thousands of Russian citizens fighting with ISIS and another 
5,000 to 7,000 Russian-speaking jihadists, making Russia the 
second-most popular language spoken within ISIS. This means 
that Sunni jihadist groups have a ready-made native force 
capable of returning back home to Russia where militants can 
more easily blend in with local populations.
    With respect to what the future holds, Russia's deepening 
involvement in Syria means that Moscow has essentially chosen 
sides in a sectarian conflict abroad, a strategy that could 
lead to tragedy at home. A new report by the Soufan Group 
estimates that Russia is indeed the largest exporter of foreign 
fighters to the conflicts in Iraq and Syria, with more than 
3,200 fighters.
    One factor that could play a significant role in the scale 
and scope of the threat facing Russia in the future is the 
struggle for supremacy between jihadist groups in the Caucasus. 
A competition for recruits and resources is intensifying 
between the two dominant jihadist entities, fostering 
decentralization of the insurgency.
    In its quest to become more assertive geopolitically by 
assuming a more aggressive role abroad, Russia has made itself 
more vulnerable to terrorism at home. Still, Putin could see 
the threat of Sunni militancy at home as the inevitable 
tradeoff for restoring Russian hegemony in its former sphere of 
influence and bringing the country back to what he views as its 
rightful place as a true global power.
    Any Russian attempts to compare the Russian campaign 
against jihadists with America's war on terrorism would be 
inaccurate. Russia has never been an equal partner in the fight 
against Islamic extremism. Moreover, Russia has too often 
exacerbated the global problem through brutal reprisals and an 
iron fist response to Islamic communities within its own 
borders.
    Accordingly, the United States should not view Russia as a 
viable counterterrorism partner at present. Any efforts to 
cooperate in this area should be judicious, measured, and 
treated with the requisite degree of skepticism it deserves.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Clarke follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Clarke.
    Dr. Cornell.

STATEMENT OF SVANTE CORNELL, PH.D., SENIOR FELLOW FOR EURASIA, 
   DIRECTOR OF THE CENTRAL ASIA-CAUCASUS INSTITUTE, AMERICAN 
                     FOREIGN POLICY COUNCIL

    Mr. Cornell. Thank you very much, Chairman Poe, Ranking 
Member Keating, Chairman Rohrabacher, Ranking Member Meeks, for 
the opportunity to testify today.
    I would like to start by pointing out that I think there 
has been a bipartisan U.S. policy over the past decade or more 
to seek Russian cooperation on major international issues.
    Obviously, this was the case with the Bush administration 
after 9/11 on Afghanistan, Iran, and on resolving unresolved 
conflicts in the Caucasus and the Caspian region.
    The Obama administration's reset policy was obviously 
predicated on the assumption that Russia could be a partner on 
all of these issues and on Syria later on.
    And the Trump administration has been to some extent 
influenced by thinking that Russia shares interests with the 
United States in fighting radical Islamic terrorism.
    As several of the opening statements made clear, and I 
agree with that, Russian behavior suggests otherwise. I would 
argue that it suggests that Russia's main aim is to undermine 
U.S. leadership in the world, and when insurgents and 
terrorists contribute to this goal in one way or another, 
Russia has no problem with coordinating with them, support 
them, and of course, manipulate them.
    Chairman Poe mentioned the conflict in Ukraine, and I think 
going further it is clear that a central instrument in Russian 
policy in the whole post-Soviet space has been the manipulation 
and sometimes creation of so-called frozen conflicts. We have 
seen this in Azerbaijan, Georgia, Moldova, and lately Ukraine. 
The first three cases, this was dating back to the early 1990s.
    In Ukraine these conflicts were basically manufactured out 
of thin air. There were no preexisting conflicts that Russia 
interfered in--they created them to undermine the statehood of 
Ukraine.
    Now, what do all the countries that are suffering from this 
problem have in common? They all are trying to escape from the 
Russian sphere of influence and looking to the United States 
for leadership in the world. The countries that have accepted 
the Russian sphere of influence, such as Belarus, such as 
Armenia, don't have a problem on their own territory with 
unresolved conflicts.
    More vexing than this issue in Russia's neighborhood is 
Russia's attitude to Islamic terrorism. I would point out that 
Russia's support for insurgency extends directly to anti-
American actors, including Islamic extremism.
    Chairman Poe mentioned that in Afghanistan since 2015, we 
have reports of Russian support for the Taliban. Back then, a 
Russian official said that Russian interests objectively 
coincide with those of the Taliban. This Russian official 
claimed that the major purpose of that was opposing ISIS.
    However, a senior Taliban official who was interviewed at 
the time said that Russia and the Taliban had been in contact 
since 2007, long before ISIS even existed, and that the main 
cause for that was the existence of the main enemy, the United 
States--and that Russia--also like the Taliban, wanted the 
United States out of Afghanistan.
    Now, this obviously flies in the face of the notion that 
Russia has been a supporter in the U.S. efforts, war efforts in 
Afghanistan, because just while President Obama was lauding 
Russia for supporting a transportation network through Russia 
and Central Asia known as the Northern Distribution Network, 
Russia was already ramping up its support for the Taliban. As 
we know now, and as multiple U.S. high military officials have 
testified, this now includes arms deliveries and other types of 
support.
    Ranking Member Meeks and the previous speaker mentioned 
Chechnya, and indeed the insurgency against Russian rule there 
in the 1990s was mainly a nationalist and a secular insurgency. 
The Chechnyan nationalists were viewed as quite a legitimate 
actor by many in the West, including on Capitol Hill, but 
gradually--after the 1994 to 1996 war--there was a radical 
Islamic component that emerged within Chechnya and within the 
North Caucasus.
    Now, you would think that Russia would target this 
component rather than the nationalists and secularists with 
whom you would actually be able to negotiate, but in fact the 
opposite was true. As I detail in my written testimony, Russia 
actively worked to destroy particularly the nationalist and 
secular forces in the insurgency, and, in fact, bolstered 
directly and mainly indirectly, the Islamic extremist groups, 
some of which Russia had infiltrated and succeeded in 
manipulating. These are, by the way, some of the forces that 
are now in Syria.
    And the purpose--and this becomes very relevant in the 
Syrian context--was basically to force everybody, ordinary 
Chechnyans, outsiders, including the United States, to confront 
a binary choice. Either you support Russia's own loyal 
Chechnyan administration or you are left with the radical 
Islamic terrorists and there is nothing in between.
    Now, going to Syria, I mentioned Chechnya in particular 
because this is exactly the blueprint that Russia has presented 
to the world by its support for the Assad regime. By focusing 
its energies on destroying the moderate U.S.-supported parts of 
the insurgency that targeted Assad they leave ordinary Syrians 
and the rest of the world with, again, the same binary choice, 
either oppose Assad or you are left with ISIS.
    Now, as I close, I would just like to reflect on why Russia 
is following this policy.
    Now, Russia is ruled by a regime that is dominated not by 
the national interests, but by the regime interests of Mr. 
Putin and his allies, and the key regime interest is to create 
an international environment that is conducive to maintaining 
that system of government in Russia.
    For this purpose, Western democracies, especially the 
United States, are a threat--not a military threat--but a 
threat to the survival of the Russian regime because of the 
attraction of the democratic system of government. And, 
therefore, there is an underlying aim of all of Russian policy 
to undermine U.S. leadership in the world and to undermine the 
legitimacy of the U.S. democracy.
    That is why Russian media depicts the West as morally 
decadent and chaotic. That is why Russia interferes in U.S. 
elections. And that is not about supporting one candidate or 
another, it is about generating chaos and crippling the 
political system of this country.
    And by definition, by the way, this means that if Russia 
supports one candidate prior to an election, the moment that 
that candidate wins, that is a candidate that Russia will now 
be undermining. And that is, by the way, why Russian trolls 
that had worked against Hillary Clinton's campaign shifted tack 
as soon as President Trump won the election and immediately 
began questioning the legitimacy of President Trump's election.
    So to end, I would say that Russia actually holds a fairly 
weak hand in international affairs. They have a very vulnerable 
economy and a very vulnerable political system. They are 
playing, if you will, a very bad hand very well.
    We, on the other hand, have a much stronger hand in 
international affairs, but we are not playing it as well as the 
Russians do--and I think it is time for the U.S.--if you will, 
to call the bluff that is Russia's foreign policy. Thank you.
    [The prepared statement of Mr. Cornell follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                            ----------                              

    Mr. Poe. Thank you, Dr. Cornell.
    The Chair recognizes Mr. Saradzhyan for his 5-minute 
opening statement. You may proceed.

   STATEMENT OF MR. SIMON SARADZHYAN, DIRECTOR OF THE RUSSIA 
 MATTERS PROJECT, ASSISTANT DIRECTOR OF U.S.-RUSSIA INITIATIVE 
  TO PREVENT NUCLEAR TERRORISM, BELFER CENTER FOR SCIENCE AND 
         INTERNATIONAL AFFAIRS, HARVARD KENNEDY SCHOOL

    Mr. Saradzhyan. Thank you, distinguished members of the 
committee, for inviting me to give my testimony, which reflects 
my personal views only, rather than the views of the 
organizations I work for.
    I have been asked to answer five questions. The first one 
is, can Russia be an effective counterterrorism partner for the 
United States? In my view, yes, Russia can be an effective 
counterterrorism partner for the United States in theory.
    Why I think so--as some of you have mentioned, the U.S. and 
Russia do share common interests in reducing the threat posed 
by Islamist militant nonstate actors that seek to build 
caliphates, or a global caliphate, in the Middle East and in 
parts of the post-Soviet neighborhood.
    The U.S. and Russia also share a vital national interest in 
preventing any nonstate actors, including these Islamist 
groups, from acquiring nuclear weapons. And we know that both 
al-Qaeda and the Islamic State have displayed practical 
interest in getting those nuclear weapons.
    At the same time, as we know, the events, the conflict in 
Ukraine, the conflict in Syria, Russia's alleged meddling in 
the U.S. elections, have imposed constraints on realizing the 
potential for this cooperation. Therefore, I am skeptical that 
in the short-to-medium future the two countries would act on 
their joint common interests in countering such groups.
    The second question I have been asked, what is actually 
Russia's counterterrorism strategy? I would say Russia's 
counterterrorism strategy employs both forceful and nonforceful 
elements.
    The forceful elements are best displayed in Russia's North 
Caucasus, from which more than 80 percent of attacks against 
targets in Russia have originated, according to the global 
database on terrorism maintained by the University of Maryland.
    At the same time, we have seen in the past few years that 
the threat of militant Islamism has proliferated to some of the 
other regions of Russia, including Volga region, the Urals, and 
even Siberia.
    So Russia's counterterrorism approach, the forceful 
component, has been focused on removing the leadership of the 
groups operating in these regions and also neutralizing members 
of these groups. In the process of doing so, Russian law 
enforcement officials have been accused of abuses, including 
enforced disappearances, extrajudicial killings, and torture.
    In my view, and in the view of scholars who study Russia's 
North Caucasus, these are some of the root causes that fuel 
insurgency and terrorism in Russia.
    At the same time, there is a nonforceful component, and 
that has been displayed in the North Caucasus, too, where 
Russian authorities have sought to reduce at least some of the 
disengagement costs for the terrorists and rebels who have not 
committed grave offenses. However, these efforts fall short of 
addressing all the root causes behind an insurgency.
    The same can be said about Russia's counterterrorism 
strategy abroad, mainly in Syria, where it is mostly a military 
operation, but where some special forces operate against 
certain leaders of the insurgency. But here, the accent on 
forceful methods has been much more emphasized, and, again, 
NGOs have accused Russian aircraft of indiscriminate bombing 
that again fuels grievances and can contribute to the rise of 
insurgency.
    The third question I have been asked to answer was, what is 
Russia's military engagement in the Middle East? Again, it is 
mostly focused on Syria. And here I would say Russia's vital 
interest in Syria is not Assad, per se, but Syria has been 
Russia's ally for many years. So preserving Syria as an ally is 
an important interest.
    At the same time, Russia also wants to make sure that Syria 
does not become a haven for terrorist groups that can attack 
Russia, given the fact that there are about 5,000 nationals of 
Russia and about 4,000 nationals of Central Asia in the ranks 
of terrorism and insurgency groups in Iraq and Syria, according 
to Russia's own estimate. So neutralizing these individuals and 
making sure they do not pose a threat to Russia is a vital 
interest of Russia.
    The fourth question I have been asked to answer is, what 
are the current terrorist threats within Russia? As I have 
said, these are posed by Islamist groups, but also there is a 
smaller number of threats posed by individual avengers who use 
terrorist methods, and also by ethnic Russian ultranationalists 
who have used terrorist methods to attack foreigners, but also 
some of Russia's own government officials, including judges.
    We have seen the surge in the number of terrorist attacks 
in Russia in 2010. Since then it has been declining.
    And finally, the final question I have been asked to answer 
is: How do Russian counterterrorism and military operations 
impact the terror threat worldwide?
    I would say the impact in the North Caucasus is of dual 
nature. On one hand, the threat of terrorism is being reduced 
because leaders have been taken out and members of an 
insurgency have been arrested. But on the other hand, the 
abuses I have described fuel some of the grievances and recruit 
fertile ground for recruitment of new members into existing 
insurgency networks. The same can be said about Russia's 
operations abroad.
    Thank you.
    [The prepared statement of Mr. Saradzhyan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
                              ----------                              

    Mr. Poe. Dr. Carpenter, your opening statement.

   STATEMENT OF MICHAEL CARPENTER, PH.D., NONRESIDENT SENIOR 
FELLOW, DINU PATRICIU EURASIA CENTER, ATLANTIC COUNCIL, SENIOR 
     DIRECTOR OF THE BIDEN CENTER FOR DIPLOMACY AND GLOBAL 
             ENGAGEMENT, UNIVERSITY OF PENNSYLVANIA

    Mr. Carpenter. Chairman Poe, Chairman Rohrabacher, Ranking 
Member Keating, and members of the committee, thank you for 
this opportunity to testify today.
    President Putin and other Russian officials have long 
proposed that Russia and the United States should work more 
closely together on counterterrorism. President Trump has also 
said that we should work with Russia on CT. And at first glance 
it might seem natural that two nations that have suffered from 
terrorist attacks should collaborate more closely on fighting 
terrorism.
    But this would be a grave mistake that damages our national 
security interests and runs contrary to our values. The Kremlin 
is, as has been said, a state sponsor of groups that use 
terrorist tactics against civilians. It is attacking the 
foundations of our democratic institutions and fueling 
conflicts from Syria to Afghanistan that contribute directly to 
radicalization and extremism.
    In Ukraine, for example, the Kremlin directly contributed 
the missiles, the hardware, the training that resulted in the 
shooting down of Malaysia Airlines Flight 17, killing all 298 
people on board. The Ukrainian intelligence services have also 
accused the Russian FSB of standing behind bombings of 
civilians in 2014 and 2015, as well as more recent vehicle-
borne bomb attacks in the capital city of Kiev.
    In Syria, the Kremlin's number one goal has been to prop up 
the murderous Assad regime, together with its allies, Lebanese 
Hezbollah and the Iranian Revolutionary Guards. Due to the 
involvement of its forces on the ground and in the air, Russia 
bears direct responsibility for the annihilation of the city of 
Aleppo, where civilian areas were indiscriminately bombed 
together with humanitarian relief convoys.
    Let's not fool ourselves. Partnering with Russia in Syria 
would be the equivalent of partnering with Hezbollah or Iran. 
Indeed, Russia's military intervention in Syria has allowed its 
ally, Iran, to gain significant influence across the region, 
stretching from southern Iraq to southern Syria to Lebanon.
    In Afghanistan, as has also been mentioned, Russia provides 
weapons to the Taliban, where these arms are likely used 
against U.S. CT forces and NATO-trained Afghan national forces. 
The Kremlin has taken this decision consciously, both to 
increase its influence in the region and to deliberately weaken 
the NATO Resolute Support mission.
    Inside Russia itself, Russia's security forces are 
responsible for killings, torture, physical abuse, and 
politically motivated abductions. The Kremlin's strategy is not 
geared toward winning hearts and minds. Instead, its singular 
focus is on the physical liquidation of insurgents. Security 
forces in Russia, whether Federal or local, apply the principle 
of collective retribution against suspected militants. Russian 
CT operations also pay little regard for the possibility of 
civilian casualties among noncombatants.
    Finally, Russian authorities have used the pretext of 
fighting extremism to crack down on Russia's democratic 
political opposition and other dissidents.
    In the United States, Russia has tried to fan the flames of 
anti-Muslim xenophobia. Fake Russian accounts on Facebook and 
Twitter spread false allegations of crimes committed by Muslim 
migrants and try to stoke discord and hate in the very 
districts where your constituents live.
    This has been happening for years. In 2015, the Russian-
linked hacking group reportedly posed as an Islamic State front 
to mount a cyber attack on a French television network.
    We should also remember that we have tried to partner with 
Russia on CT issues in the recent past. The results of these 
efforts indicate Russia is more interested in collecting 
intelligence on us than sharing information on terrorist 
threats.
    Under a different Kremlin leadership it might make sense to 
work with Russia on CT operations or countering violent 
extremism. But today, the Putin regime's geopolitical ambitions 
and CT strategy are directly antithetical to U.S. national 
security, contribute directly to the radicalization of 
extremist groups, and are contrary to our basic values.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Carpenter follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                             ----------                              

    Mr. Poe. Thank you, Dr. Carpenter. And we understand that 
you have to leave at some time after 3 o'clock. Go ahead and 
excuse yourself. No one will arrest you on your way out the 
door.
    Mr. Carpenter. Chairman, I have to leave at 3:25.
    Mr. Poe. Alright, 3:25. We will watch the clock.
    I will recognize myself for some questions, and then we 
will have the other members.
    As you can see, there is a wide range of views among our 
two subcommittees on this issue. I want to talk specifically 
about the question at hand, Russia's involvement in terrorist 
activities. I would like to compare, if possible, Iran, which 
is labeled a state sponsor of terror--the number one state 
sponsor of terrorism in the world is Iran--with some of the 
actions of the Russians.
    Dr. Carpenter, you mentioned the Malaysian plane that was 
shot down. Did the Russians shoot that down?
    Mr. Carpenter. Chairman, the Russians provided the system, 
the hardware, the missiles to infiltrate that system from 
Russia into Ukraine. We do not know who the triggerman was, but 
in all likelihood that person was trained in Russia by Russian 
special forces.
    Mr. Poe. Alright.
    Does Russia, Dr. Cornell, supply arms and assistance to 
Hezbollah, a terrorist organization?
    Mr. Cornell. Sir, I don't have any more information on that 
than what I read in the papers. I read that that is the case. I 
don't have anything additional--I would call Russia the number 
one state manipulator of terrorism, if that is helpful.
    Mr. Poe. That is a new term that we may have to deal with.
    Do any of the other three of you wish to comment on whether 
Russia does or does not supply any materials to Hezbollah, a 
terrorist group?
    Dr. Carpenter.
    Mr. Carpenter. So, Chairman, I can't speak directly to 
whether they contribute weapons or material. However, it is 
clear that Russian special forces on the ground in Syria 
coordinate their actions with their allies, their principal 
allies being Assad regime forces, Hezbollah forces, and the 
Quds Force from Iran.
    Mr. Poe. So they work with them. They may not supply 
material support, but they work on the same side, so to speak, 
in supporting the Assad regime.
    Mr. Carpenter. Sir, they coordinate both tactical and 
strategic missions.
    Mr. Poe. Is the elimination of journalists, political 
opponents--I alluded to 14 of them in my opening statement that 
were suddenly disappeared by so-called accidents in the United 
Kingdom--was that inspired or supported or done by the Russian 
Government? Do any of you want to comment on that?
    Dr. Carpenter again.
    Mr. Carpenter. So, Chairman, we know that the U.K. 
Government has fingered two Russians, Andrei Lugovoi and his 
partner, in the murder of Alexander Litvinenko with polonium, 
and they have provided a great deal of information about how 
that was done specifically. And I think I will leave it at 
that.
    Mr. Poe. Would any of you consider cyber attacks by one 
nation, specifically Russia, into the United States, would you 
consider that terrorism, an act of war, or something else?
    Dr. Cornell.
    Mr. Cornell. Mr. Chairman, I think, depending on what that 
cyber attack does, it could be any of the above.
    I think the important part to understand about Russia is 
that the advantage they have, in spite of the weakness in terms 
of economic power and the vulnerability of their political 
system, is that they have a highly hierarchical power vertical, 
as Mr. Putin likes to call it, that has a whole different set 
of instruments, a toolbox, that they can choose from. They can 
use direct military attacks on their neighbors, as in the cases 
of Ukraine and Georgia. They can choose to use cyber attacks, 
subversion, support or manipulation of insurgency.
    All of these are available to Mr. Putin through the press 
of a button. We are not organized to respond to that type of 
behavior from a state like Russia, and I think that is really 
where the problem is.
    Mr. Poe. Any of the rest of you want to comment on that?
    Dr. Clarke.
    Mr. Clarke. Not specifically on cyber, but to get back to 
one of your earlier points about the Russians and Lebanese 
Hezbollah. I think if Iran is a state sponsor of terrorism, 
Russia is a sponsor of a state sponsor of terrorism by 
sponsoring the Iranian regime and working closely to deconflict 
with Lebanese Hezbollah on the ground.
    Mr. Poe. State sponsor of a sponsor of terrorism. Alright. 
Okay.
    Let me ask you one other question, the four of you, just 
yes or no. Should the United States work with Russia in trying 
to combat international terrorism?
    Dr. Clarke.
    Mr. Clarke. No.
    Mr. Poe. Dr. Cornell.
    Mr. Cornell. Not under the current regime in Russia, sir.
    Mr. Poe. Not under Putin.
    Dr. Saradzhyan.
    Mr. Saradzhyan. In my view, if there is a credible, serious 
threat to the United States posed by terrorist groups, then the 
answer should be yes.
    Mr. Poe. Dr. Carpenter.
    Mr. Carpenter. We should not cooperate with Russia. We 
should communicate with them, but under no circumstances should 
we cooperate.
    Mr. Poe. Okay. Thank you.
    The Chair will recognize the gentleman from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Since Dr. Carpenter is leaving, I am intrigued on one 
thing. I traveled to Sochi prior to the beginning of the Winter 
Olympics to learn more. It was a two-person codel. Frankly, we 
had some difficulty getting in, but we made it in there. And 
both Members of Congress were very surprised when we got there.
    We were there to look at the cooperation that exists and 
how we could learn from that with a major event. When we got 
there it was clear that there was cooperation with almost every 
other country working together and with our FBI and other 
intelligence people that were there, but it was a total wall 
with Russia, which I found odd because that is their sovereign 
area and we have a vested interest, I think, in pooling those 
resources.
    So, Dr. Carpenter, you gave me maybe an answer as to at 
least why that was the case. I thought it was just one of 
sovereignty and pride, but you have a different theory in part. 
So I am very intrigued. Could you expound on that?
    Mr. Carpenter. So, Ranking Member Keating, I also traveled 
to Sochi as part of an international set of security, 
diplomatic, and intelligence officials to discuss preparations 
for security arrangements in advance of the games. It was clear 
then that the Russians were not willing to divulge a great deal 
of information about the preparations that were underway, other 
than that they were creating a massive perimeter around the 
Olympic facilities, and they intended to----
    Mr. Keating. The ring of steel, right?
    Mr. Carpenter. The ring of steel, as it was called, 
correct, sir.
    But at the time our chief interlocutor on the Russian side 
was the top FSB general responsible for counterintelligence, 
not counterterrorism, Mr. Syromolotov, and it was clear from 
the engagements that we had at the time that their primary 
concern was counterintelligence and not sharing information on 
terrorist threats.
    Later, subsequently, when I was NSC director for Russia, we 
engaged in bilateral conversations with the Russian Security 
Council on Sochi, which I participated in, and I have to say 
the tone of those conversations was very cordial. The mood was 
okay. But we did not receive any significant information from 
the Russians in the leadup to the games, despite having an 
enormous interest in terms of being the largest sponsor with 
the largest number of athletes and the largest number of 
sportsmen contributing to the games.
    Mr. Keating. Thank you.
    I think it was Dr. Cornell. If it wasn't, I will let anyone 
jump in. But I was intrigued because you can look at it from 
the other side and say, you know, why wouldn't it be in 
Russia's interest to cooperate with us?
    And I think it was Dr. Cornell who said in your opening 
remarks that they are doing it because they have a unique 
regime and they want to protect that regime. If it wasn't Dr. 
Cornell, please anyone who wants to answer this.
    But what did you mean by preservation of their unique 
regime and why this is the way they conduct themselves in terms 
of counterterrorism and other actions to preserve that 
uniqueness?
    Mr. Cornell. Ranking Member Keating, what I referred to was 
specifically and primarily Russia's behavior toward its 
neighbors. It was very much predicated on an answering to the 
so-called color revolutions in Georgia, Ukraine, and Kurdistan 
from 2003 to 2005, which the Russian Government saw as a mortal 
threat to its own form of government.
    Because if those neighboring states would be able to 
develop into successful democracies, especially if Ukraine, 
which shares linguistic and cultural ties with Russia, if 
Ukrainians would be able to live in a state that was not 
authoritarian, not corrupt, not kleptocratic--why should the 
Russian population itself tolerate continuing to live under 
those circumstances.
    And therefore what had previously been mainly a 
geopolitical, board game type Realpolitik relationship with the 
West became very ideological. For Russia after that, 
undermining the very notion of democracy, popular support for 
democracy, both among its neighbors, among the Russian public 
itself, and even in the West, became an aim of the regime, 
because by discrediting democracy, and especially democratic 
uprisings and revolutions, and making the West appear to be 
chaotic and decadent, that bolstered support domestically for 
the Russian regime itself. That is mainly when I referred to.
    But part of that is also undermining the leadership of the 
United States in the world, including--and that is one of the 
main reasons why Russia moved to Syria, not because--partly 
because Syria is important to Russia, but also because they saw 
a vacuum that enabled them----
    Mr. Keating. If I could interrupt for 2 seconds, I just 
have one more question. Because I think it is maybe more than 
ideological. How much is Putin worth? How much would you 
estimate, any of you?
    Mr. Cornell. I have heard figures of $40 billion, but that 
was a long time ago.
    Mr. Keating. Anyone else want to venture a guess?
    Mr. Carpenter. So, Ranking Member Keating, I can't hazard a 
guess because Putin is the beneficial owner through a variety 
of shell corporations and accounts. Other people hold money for 
him. But it is in the billions of dollars, likely the tens of 
billions of dollars.
    Mr. Keating. I would just suggest that maybe it is a little 
bit more than ideological.
    And I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you, Chairman.
    And thank you, gentlemen, for your testimony.
    I am of the mind that I don't believe that Russian 
intervention in Syria was by any means a counterterrorism 
objective. I think it was certainly a counterinsurgency 
objective against those that would have stood against Assad.
    I think in doing that you could say that they stepped in 
it. I think that would be a good way to put it. I think the 
terrorist activities that have resulted in Russia are proof of 
that. There have been calls for jihad, obviously by ISIS, by 
al-Nusrah. There are estimates of 5,000 to 7,000 Russians that 
are over there fighting on behalf of the Islamic State.
    And that brings me to my first question. Do you think that 
Russia is going to allow those thousands of fighters back into 
Russia? What is your speculation or take on that piece of it?
    By all means, sir.
    Mr. Clarke. Absolutely not. I mean, I think that was part 
and parcel of the strategy in the leadup to Syria, was to usher 
these individuals out and to encourage them to go to Syria, 
full well knowing that the Russian Air Force would then bomb 
them from the skies and then put up a fairly robust border 
security forest to prevent anyone from returning home, although 
that does not prevent the radicalization of individuals who 
were prevented from leaving, never left in the first place.
    Mr. Mast. That kind of creates a very good segue for my 
followup question. It has been said within Russian 
counterterrorism efforts that the family is the thread that 
needs to be pulled to unravel a terror group.
    Could any of you unpack that a little bit in terms of 
whether that has been a successful policy within the borders of 
Russia for Vladimir Putin?
    Mr. Carpenter. So I can start, I think Dr. Clarke has also 
written and spoken about this.
    But collective retribution is one of the policies that 
especially local security forces use in Chechnya, Ingushetia, 
Dagestan, and the other North Caucasus Federal Republics. It is 
singularly ineffective.
    Some analysts will tell you that it is brutal but effective 
in the short run, but over the long run clearly it is myopic 
and leads to radicalization of entire communities who feel that 
the regime is bearing done upon them. But it is common for 
family members of insurgents or would-be militants to be 
kidnapped, to be tortured, to be interrogated, held, sometimes 
even killed.
    Mr. Mast. Any further? Please, by all means.
    Mr. Saradzhyan. I would like to point out that according to 
Russia's independent Meduza newsline outlet, whose journalists 
have gone and interviewed people in the North Caucasus, 
Ingushetia has set up, one of the republics in the North 
Caucasus, has set up a commission to try to accommodate some of 
the people who tried to return from Syria to Russia.
    But I would be very surprised if a large number of 
individuals would use that channel because they are still 
liable according to the Russian law and they would be jailed if 
tried and convicted for participation in illegal formations.
    There has also been an effort to bring in wives and 
children of the killed rebels, and that has been done in the 
North Caucasus, and I think the numbers is in dozens.
    But again, 5,000 people fighting and only dozens of cases 
being successfully returned to Russia.
    Thank you.
    Mr. Clarke. Sir, I can speak to some of the empirical 
evidence that I have come across in my own research on this 
topic. I was one of the coauthors at RAND of a study on 
counterinsurgency looking at every single insurgency since the 
end of World War II to 2009. We roundly found that what we call 
the ``crush them'' approach, a draconian, authoritarian 
approach to counterinsurgency, was indeed counterproductive in 
the long term.
    Mr. Mast. Very good.
    I have one more question and this is open to any one of 
you. All of you said pretty much unanimously that we should not 
cooperate with Russia. That is a very ambiguous statement when 
we are talking about counterterrorism.
    So please, if any of you could give me some examples of 
normal counterterrorism cooperation that would exist between 
nations that you believe we should not undertake. Give me some 
concrete examples of what you wouldn't like to see happen in 
terms of counterterrorism cooperation, that being the word that 
you all used.
    Mr. Carpenter. Perhaps I can start again and I will have to 
leave after this.
    But in terms of counterterrorism cooperation, I would not 
want the U.S. Government to be sharing any information that 
could compromise sources or methods. I would not want the U.S. 
Government to share any information with the Russian Government 
that could be used against dissidents inside Russia.
    And certainly, I would not want the U.S. military to be 
engaging in any sort of combat missions or operations or 
sharing of information on targets in Syria or any other 
military battlefield, because that would essentially make the 
U.S. complicit in any civilian casualties that result from 
Russia's bombing campaign, as well as it would tie us to the 
toxic axis that Russia has formed with Hezbollah and Iran that 
we have spoken about earlier.
    Mr. Mast. My time has expired. If the chairman wishes to 
give you all time to answer, by all means, but I thank you for 
your responses.
    Mr. Poe. I thank the gentleman from Florida.
    The Chair recognizes the gentleman from New York, Mr. 
Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I know you have got to go, Dr. Carpenter, and I was going 
to ask a very similar question as Mr. Mast, and I guess you 
just answered it. Because I wanted to know specifically what 
U.S. interests that cooperation would undermine. And I think 
basically you just said that there are several intelligence 
pieces that Mr. Putin. So just in case, is there anything that 
you wanted to add to that before you leave?
    Mr. Carpenter. Well, I think the only other thing I would 
say is that we all have to remember that Russia right now is 
engaged in an ongoing attack against our democratic 
institutions.
    Russia sees the United States as its chief geopolitical 
adversary for some of the reasons that my friend Svante has 
outlined, namely that it sees the United States and the West, 
Western democracies, as the ones who are undermining its 
kleptocratic and authoritarian regime. So, to protect its 
wealth and power it is striking out against the United States 
and other countries.
    And for us to be engaged in a cooperative effort at the 
very same time that Russia is attacking our institutions and 
seeking to gain advantage over the United States and our 
military just doesn't make sense to me.
    Mr. Meeks. You have answered. I am going to ask this to all 
of the panelists.
    I think President Trump has recently suggested that 
cooperation with Russia on counterterrorism efforts should lead 
to sanctions relief on Ukraine. Now, I have my own opinion, but 
let me just ask you for your opinion. Should that lead to 
sanctions relief? Should a counterterrorism agreement with 
Russia lead to sanctions relief with Ukraine?
    Mr. Clarke. I am sure Moscow would love that and that would 
be the intended purpose of any kind of proposed cooperation. 
But I think as you said, Ranking Member Meeks, in your own 
opening statement, Russian self-interest will occasionally 
intersect with ours and it is nothing more beyond that.
    Mr. Cornell. If I may add, Ranking Member Meeks, I think 
this is exactly the mistake that the Obama administration did 
after Russia invaded Georgia following years of using 
insurgents to undermine the sovereignty of that country.
    As you know, only months after that any sanctions that had 
been imposed on Russia by the U.S. and Europe were tabled and 
the reset policy was started which sent a signal to Russia 
that: We can do whatever we want to, the West will back off, 
and will cooperate with us again.
    And I think that is exactly the signal that we would send 
by doing, and by doing so, we would set ourselves up for even 
larger troubles with Russia in the future.
    The only way to get Russia to be a constructive partner is 
to show them what is acceptable behavior and what it not. Once 
they have understood that, I am all for cooperation.
    Mr. Meeks. Dr. Carpenter.
    Mr. Carpenter. I generally agree with that statement. As 
someone who was working on Georgia policy at the time though, I 
would simply add that the Obama administration took office in 
late January and the Bush administration made absolutely no 
effort to put sanctions on Russia for its invasion of Georgia, 
nor impose any other lasting consequences, which was a mistake.
    Mr. Meeks. Thank you.
    Let me go back. Dr. Cornell, real quick. I think, if I am 
not mistaken, you were a witness at a hearing that we had on 
Azerbaijan a few years ago. And you recently wrote about how 
the United States inadvertently promotes extremism, right, in 
the name of religious freedom, if I am not correct.
    Mr. Cornell. Yes, sir.
    Mr. Meeks. Which goes to show how blanket policies can be 
dangerous in the local politics.
    What missed opportunities are there in Central Asia for 
cooperation with Russia, in your opinion?
    Mr. Cornell. Ranking Member Meeks, I think there are 
enormous opportunities for cooperation in Central Asia with the 
governments and states of Central Asia. They would like to 
cooperate with us directly. They don't need any intermediaries.
    With Russia, we know that one of the reasons why Russia in 
2010 supported the ouster of the government of Kyrgyzstan was 
because that government refused to eject the United States 
military base that was existing in that country. That triggered 
the move by Russia against that government, led to a coup 
d'etat, which was followed by large-scale ethnic unrest in the 
south of that country. So, subsequently, the U.S. military base 
in Kurdistan was closed.
    I think that tells you everything you need to know about 
how Russia would view any form of cooperation with the United 
States in Central Asia.
    However, as I said, these are countries that are 
attempting, in spite of many domestic flaws in terms of human 
rights, freedoms, and so on, to build secular states in the 
Muslim world. We have not acknowledged that. That was the 
subject of the article that you referred to that I cowrote with 
two colleagues. We have tended to hector them about not 
respecting religious freedom without understanding that they 
are trying to maintain secular societies, secular systems of 
education and law. And that is something where we can cooperate 
with them.
    Mr. Meeks. Thank you.
    I think I am out of time, so I will yield back.
    Mr. Poe. The Chair recognizes Chairman Rohrabacher for his 
questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. There 
is a lot of ground to cover and I am the only over here trying 
to present an alternative right now.
    But let me just note that after 9/11 I think that we could 
say that there is no other country in the world that did more 
to help cooperate and had a major influence on what we did to 
defeat the Taliban and kick Saddam Hussein out. They made their 
bases available to us, because we came in from the north, 
instead of through Pakistan.
    And the reason we didn't go through Pakistan, because 
Pakistan and Saudi Arabia were the ones who invented the 
Taliban, who we were at that point going to war with because 
they had slaughtered 3,000 Americans, their Taliban. And also 
the Saudis, who almost all of the hijackers were Saudis. Okay? 
But Russia stepped up. That doesn't count, does it? No, we are 
good friends with the Saudis and the Paks.
    Let me just get in a couple of things. I am sorry the 
gentleman had to leave. I don't know if he--it sounded like he 
was or was not suggesting that the Russians were culpable in 
the shooting down of that aircraft.
    But let's just note that we support a lot of groups all 
over the world. Do we have a double standard here? Is that what 
it is all about, if the Russians can do something, but that 
doesn't apply to the United States when we support people and 
they do some bad things with the weapons that we give them?
    I think that if I was a Russian listening to this, that is 
what I would come to the conclusion of: Oh, the Americans have 
this double standard.
    I am going to ask one question, I am sorry again, very 
quickly. Can any of you tell me why the Russians gave $150 
million to the Clinton Foundation when Hillary Clinton was the 
Secretary of State? Can anybody tell me on the witness stand?
    Okay. Well, that shouldn't be out of the equation. When we 
are trying to discuss what Russia does, we know that that 
happened, even though there seems to be an effort to try to 
cover that up and now don't pay attention to it.
    Assad. Is Assad demonstrably different than any number of 
five or six other dictatorships in the Middle East? Is he 
capable more, if any of those people had uprisings in their 
country, is he capable, is he doing more than what they would 
do to destroy the uprising?
    Mr. Clarke. Chairman Rohrabacher, I would note that Assad 
has used chemical weapons twice against his own population, and 
that seems to be more than anyone else has done in the region.
    Mr. Rohrabacher. How many people were killed in that? So we 
are talking about----
    Mr. Clarke. How many----
    Mr. Rohrabacher. Yeah, using chemical weapons is bad. Using 
a rocket bomb that kills 10 times as many people is bad as 
well. And the bottom line is, I have heard this chemical, 
biological. Yes, I am against chemical biological weapons.
    But what is important here is the number of people who are 
being--civilians especially--who are being killed to intimidate 
them. And the bottom line is Assad is a bad guy. So are a bunch 
of regimes that we support there.
    And let us also suggest this, that Assad has had a chance 
to be a force for peace with Israel all of these decades, and 
that should be taken into consideration when we judge Assad.
    And also let us note about Russian support for Assad, the 
Russians tried to convince us: Look, we can make a deal with 
Qadhafi, it will settle things down, it is better than what 
will happen if Qadhafi is overthrown.
    The same thing with Saddam Hussein. Now they are trying to 
tell us that is true with Assad. What are the chances? Think 
about, what are the chances, Assad is overthrown, that you get 
a radical Islamic government that hates us and is willing to 
support terrorism? The chances are very high.
    And when we discuss these things, those things should be in 
our calculation as to what our policies should be and they 
don't seem to be. What we seem to be talking about is 
everybody's--the faults of anybody who is associated with 
Russia. Let's note that we have some of those same faults and 
we shouldn't have a double standard.
    And I noticed the last time, Mr. Chairman, that we had this 
whole bombing attack, I remember there was 84 civilians that 
were killed in that hospital and nobody would justify that.
    But I would have to suggest that since we invaded and tried 
to get out of Saddam Hussein, and even right now in our efforts 
to try to overcome the radicals and Assad's forces, many, many 
thousands of people, civilians, have lost their lives to 
American bombs. Not intentionally that we wanted to single them 
out, but that that was the byproduct of that.
    And I would just suggest that if we want to have peace in 
this world, especially with radical Islam the way it is, we 
better work and not have a double standard and try to work with 
people, as we needed to when we defeated Hitler. And otherwise 
Hitler would not have been destroyed, and Stalin was really was 
an awful person.
    Thank you very much, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from New 
Jersey.
    Mr. Sires. Thank you, Mr. Chairman. After those 5 minutes I 
have to collect my thoughts. They are kind of scrambled.
    So, first of all, I would like to associate myself with the 
comments of the chairman and the ranking member. I certainly 
agree with you 100 percent.
    I grew up in Cuba. I left in 1962. I think I know a little 
bit about Communism. And I remember very clearly when they 
started the indoctrination process, when they started trying to 
inculcate into your mind that the things in the world that are 
wrong were wrong because of the United States, that we were the 
evil of the world, that we needed to destroy the United States 
of America. Fortunately, I was taken out of that situation and 
brought to this country.
    And I don't know anywhere in this world where the Russians 
have a footprint that is better off today than before. They 
create nothing but chaos, they create nothing but destruction, 
because that is how they thrive.
    Because if you give those countries the ability to stop and 
think what Russia stands for--what that government stands for--
and I am not saying the Russian people are bad, but that 
government, people will never accept that.
    So, unfortunately, you know, this is such a great country 
that we have my colleague from California different from me, 
and he will go home and he will have coffee and everything 
else. He will have the Kool-Aid, too, regarding Russia.
    But I just don't know anywhere in the world where they are 
better off when the Russians are in. I remember we came close 
to nuclear war when they tried to put nuclear weapons 90 miles 
away from here.
    We had a visit, we had a defector here the other day from 
Korea, and he stated that the reason North Korea has developed 
such rapid nuclear weapons is because the Russians have helped 
them develop it.
    Now, is that someone we can work with? I mean really, my 
thoughts are still scrambled.
    So I really don't have any questions, Chairman, because I 
am kind of, you know, I am, like, flabbergasted that somebody 
can think of Russia and think so much of it. If I were in 
Russia, Dana, I would hire you. I would hire you as a lobbyist 
here in this country.
    Mr. Rohrabacher. You mean like they did with Hillary?
    Mr. Sires. That is right, Hillary and you.
    Mr. Wilson. It was Bill that got the money.
    Mr. Sires. Look, as I look at this and I see what is going 
on now in the Western Hemisphere where the Russians are trying 
to influence and trying to damage any kind of a system that you 
have there, they are arming Nicaragua in the Western 
Hemisphere, they are propping up a regime in Venezuela that is 
the destruction of Venezuela. I mean, as you look, obviously, 
they just opened up the hearing in Cuba, they had a whole big 
hearing to eavesdrop on Americans' communication, it is all 
open now.
    So, I just can't buy the fact that we can somehow work with 
this government. I would not trust any information that we get 
from Russia if we were ever working together. And when you talk 
about Putin, he is KGB years ago and he is KGB now.
    And the KGB's mission was to destroy this country, and we 
saw what they did in this election. And we are still feeling 
the effects of this election where we have our groups at each 
other's throats because of what Russia did in this country by 
hacking all these different places.
    So, Chairman, I thank you for holding this hearing. And I 
yield back the rest of my time.
    Mr. Wilson [presiding]. Thank you, Congressman Sires. And 
we appreciate so much your Cuban American heritage and your 
strength on behalf of freedom in Cuba.
    Chairman Poe has assigned myself for the balance of the 
hearing. He had an additional meeting that he would be 
attending.
    At this time I will defer to myself for questions, 
Congressman Joe Wilson from South Carolina.
    With the collapse of the Soviet Union, which was correctly 
identified by Ronald Reagan as the Evil Empire, I was so 
hopeful for a new modern Russia participating in Europe, 
participating in Asia, positively participating around the 
world.
    And I have visited Russia a number of times. It is always 
very impressive to me, the wonderful people, the positive 
people who I met, the extraordinary Russian culture, the art, 
the music, the literature, the architecture.
    But, sadly, with the Putin regime there has been a return 
to an authoritarian status, which I think is so disappointing 
for what should be such a positive country.
    Russia has taken strong action against terrorism 
domestically, as it is a fertile field for radical Islamic 
terrorists, as we all, sadly, saw with the massacre at the 
school in Beslan.
    Also, they have targeted ISIS and other groups that have 
infringed on them in their allies. But, sadly, in other cases 
they have supported Iranian-backed militia through their 
support of the Assad regime in Syria.
    In any of your opinions, does Russia actually have a 
strong, coherent antiterrorism policy or do they have a policy 
of convenience? And by that, they seem to support destablizing 
efforts of terrorism when the action supports a short-term 
strategic goal of Russia and ignore the long-term effects of 
supporting terrorist organizations which one day would actually 
come back to kill Russian citizens.
    And we can begin with Dr. Clarke or whoever would like to 
proceed.
    Mr. Cornell. I would like just to bring up one example, 
sir, which is a man by the name of Shamil Basayev. This was 
Russia's terrorist number one for a number of years until he 
died in 2006. This is a person that Russia trained to fight in 
the insurgency against Georgia and Abkhazia in 1991 to 1992.
    After a few years, he came back and became the leader of 
the jihadi resistance in Chechnya, which shows an exact example 
of what you are talking about, namely, how Russia themselves 
created their owns Frankensteins, if you will, that came to hit 
back against Russia. That is because their policy is 
shortsighted and tactical in nature rather than long term and 
strategic.
    Mr. Wilson. Dr. Clarke.
    Mr. Clarke. Thank you, Congressman.
    I would add to that, as I have alluded to in my written 
testimony, that several prominent individuals from the former 
Soviet Union, including an individual known colloquially as 
Omar the Chechen, rose to fairly high ranks within the Islamic 
State. It kind of shows the prominence with which certain 
Russians have attained within ISIS.
    And so, that would be one of my main concerns, you know, 
were I Russia, for kind of blowback in the aftermath of the 
collapse of the caliphate.
    Mr. Saradzhyan. I would like to point out that this 
particular individual, if you are referring to the minister of 
war, he was actually a native of Georgia, ethnic Chechen, he 
wasn't Russian national or ethic Russian.
    In general, I would like to point out that terrorism is a 
strategy. I condemn that strategy because it targets innocent 
people, but whether a country actively pursues terrorists, 
unfortunately, it many times depends on what national interests 
are. Okay?
    But if you look at the national interests of the U.S. and 
Russia, I would still argue that it is in the vital interest of 
both countries to prevent innocent people being killed by 
terrorists. So in that sense, whenever lives of innocent people 
are at state, I would suggest cooperation with Russia, with any 
other country for that matter, that can prevent killing of 
innocent people.
    Thank you.
    Mr. Wilson. Thank you each.
    Russia's aggression into the Ukraine--and it should be 
remembered that 10,000 people have died due to that 
aggression--and support for pro-Russian separatists in Ukraine, 
of the Republic of Georgia--I just returned from Tbilisi. What 
an extraordinary country, and how brave the people are of the 
Republic of Georgia and what great allies they are of the 
United States. Also, there has been destabilization in Moldova.
    And would you view their direct support for government 
separatists as supporting terrorism and another example of 
antiterrorist policy of convenience? In addition, should the 
United States consider these groups terrorist organizations? I 
would like your input on that.
    Mr. Cornell. So definitely in Ukraine we see examples of 
terrorist tactics being used. And the other conflicts we would 
have to go back to events in the early 1990s. We could discuss 
what was terrorism and what was not. But in Ukraine definitely.
    Mr. Wilson. And my time is up. Part of being chairman, we 
have to abide by the time.
    And so I would like now to proceed could Congresswoman 
Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chairman.
    As the United States works to defeat the Islamic State 
there are opportunities to work with Russia, but the U.S. must 
create clear lines when working together on counterterrorism. 
The Russian tactics of indiscriminate bombing and targeting of 
civilian populations run contrary to our values and the long-
term benefits of counterterrorism. The Kremlin's support of 
nonstate actors that align with their interests also endangers 
any potential partnership in the Middle East as doing so 
legitimizes rogue actors and discourages long-term stability.
    In addition to interfering in our elections with 
propaganda, the top U.S. general in Afghanistan, General John 
Nicholson, testified that Russia is trying to legitimize the 
Taliban by spreading a false narrative that the Taliban is 
fighting the Islamic State. These are very concerning 
developments that undermine our ability to build mutual trust 
between the U.S. and Russia.
    So to the panel, given Russia's extremely poor track record 
on human rights, how should the U.S. cooperate with Russia 
without undermining our American values? In addition, what 
assurances should we seek from Russia? And what are the 
potential risks of increasing counterterror operations?
    I can repeat it again if that is too long.
    Mr. Clarke. Thank you very much for your question, 
Congresswoman.
    As I have stated, I don't think the United States should 
cooperate with Russia, I don't think that Russia is a reliable 
partner. I think that Russia is not accountable to its own 
citizens. And as you mentioned, the human rights abuses are one 
example of that.
    And I think just the lack of trust that permeates the 
overall relationship speaks volumes. There is a reason for that 
lack of trust. And I haven't see seen any evidence or any 
reasons of why that lack of trust should have dissipated.
    Ms. Kelly. Thank you.
    Mr. Cornell. Congresswoman, I concur with the previous 
speaker.
    Ms. Kelly. The other panelist?
    Mr. Saradzhyan. As I have said before, I think whenever 
lives of innocent people are at stake, that countries should 
cooperate to prevent killing of innocent people.
    And the domestic order in Russia--Russia is no democracy, 
of course. It is a semi-authoritarian regime, but what is the 
vital interest? Is that preventing terrorist attacks against 
citizens of a country? I think it is a vital interest. So 
acting with Russia in that interest would benefit the United 
States, in my view.
    At the same time, of course, given the current atmosphere 
and the rivalry between the two countries, it is difficult to 
expect any kind of golden age we saw relatively robust 
cooperation when the Bilateral Commission was established.
    So for Russia to be embraced as a full partner in this 
sphere, as I said, several things should happen. The conflict 
in Ukraine should be resolved, the conflict in Syria should be 
resolved, and these conflicts can be resolved, although the one 
in Ukraine is difficult to resolve.
    But even if these things happen, we have to wait for 
results of the congressional and the FBI inquiries, because 
these would determine the scope of cooperation or rivalry or 
whatever happens between the United States and Russia in this 
sphere.
    Thank you.
    Ms. Kelly. It seems like the President has this expectation 
that Russia can help us with North Korea. Do you see that at 
all?
    Mr. Cornell. Congresswoman, as I noted in my opening 
remarks, I think the problem with Russia is that when 
confronted with a choice between either supporting the United 
States in solving an international problem, even one that may 
be problematic for Russia on the one hand, and taking a course 
of action that would further undermine the interests of the 
United States, Russia chooses the latter option. And that is 
why I think it is highly unlikely.
    I think at this point Russia is probably, after China has 
shown tendencies of becoming fed up with North Korea, Russia--I 
wouldn't be surprised if they turned out to be the major 
lifeline of the North Korean regime in the years going forward.
    Mr. Clarke. Congresswoman, I think any cooperation with 
Russia needs to be viewed within the broader relation, and also 
within the broader set of Moscow's geopolitical ambitions, and 
not through the narrow lens, whether it is cooperation in Syria 
or the North Korea problem set. I think we need to look at this 
more comprehensively.
    Mr. Saradzhyan. I think Russia's participation in the talks 
with Iran on its nuclear program has showed that despite of 
certain deterioration of the relationship, when it is in the 
vital interest of Russia to attain a certain outcome, it can 
cooperate.
    I see Russia's vital interest in having no nuclear 
neighbors. So if we want to continue down the diplomatic path, 
you could expect Russia to behave accordingly in the United 
Nations Security Council. But if the path of war had been 
chosen, Russia would probably oppose that path because it is 
located next to North Korea and it just doesn't want a major 
conflict on its borders.
    That said, we should bear in mind that Russia's leverage 
vis--vis North Korea is fairly limited. And the only country 
that is considered as a lifeline for North Korea is China. If 
China stops supplies, North Korean Government will not last 
long. So it if there is a country where there is a silver 
bullet, so to say, the country is China, not Russia.
    Ms. Kelly. Thank you. I yield back.
    Mr. Wilson. Thank you very much, Congresswoman Kelly.
    We now proceed to Congressman Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    I find it fascinating, some of the dialogue today. Just my 
mind wanders from one point to another.
    Sir, where you just said that Russia would oppose action in 
North Korea because it doesn't want conflict on its borders, 
yet I don't know, to anybody that is noticing world events on a 
daily basis, Russia creates conflict on every single border 
every single day, unprovoked, in my opinion.
    But that having been said, like I said, I am curious about 
the meaning of this hearing or the reason for this hearing. I 
mean, Russia has been a strategic adversary, if not an outright 
enemy since its existence. And yet, we have people--and they 
confront America from without and within every single day. And 
it is well documented. It is well documented. And we have had 
Presidents cooperating, I mean, to the height of the 
Presidency.
    Once again, I must mention Mr. Harry Hopkins. And how about 
John Service working within the FDR administration? The heck 
with working within the administration, working in the Oval 
Office with the President. I mean, the history is replete.
    That having been said, I have just got to say that I think 
that we must separate the Russian people generally from the 
apparatchik, from the management, if you will, the leadership 
of the country. I think the people, generally speaking, of the 
Russia have a different mindset and would like to lead a 
different life to a certain extent, devoid of what the actions 
and the aims and interests of their leadership are. But there 
are two different things and we are dealing with their 
leadership.
    And I also must say that any kind equivocation or moral 
equivalency by some Members of this august body up here at the 
dais that the United States in its interest is similar to 
Russians and their interests when we inadvertently hurt 
civilians in some kind of a campaign, where the Russians don't 
care about hurting civilians, that is a very stark difference 
and I think it is important to draw that.
    That having been said, nations acting in their own self-
interest--and Russia is going to act in its own self-interest 
and always has. And I would agree with Dr. Clarke and Dr. 
Cornell, particularly, I think, that would say that any time 
that they can use it against the United States in particular, 
even sometimes irrationally, that they seem to be willing to do 
that and they have a history of doing that.
    But I have one curiosity at a minimum: The Tsarnaev 
brothers, the Boston Marathon bombing where allegedly they 
tipped off. I say ``allegedly'' because these days you just 
don't what the truth about anything is reported from anywhere.
    But if they did inform our intelligence community in the 
United States in advance, what would have been their interest 
in doing that? I mean, were they just being Good Samaritans, I 
mean, at that level, or is there a different game here? Is it 
every now and then you throw the dog a bone and the big one is, 
``We are going to take over this country over here while you 
guys watch the Tsarnaev brothers blow up your marathon''? What 
is your opinion on that?
    Mr. Clarke. I can't speak to what Russian interests might 
have been in providing that information or whether, if that 
information was provided, if it was a complete picture. What I 
can say is whatever information was provided did not prevent an 
attack still.
    And I would also say I agree with you that I think nations 
will always act in their own self-interest, but we should not 
mistake that with altruism.
    Mr. Cornell. Congressman, on the issue of the Tsarnaev 
brothers, I think I know little about this, the intelligence 
agencies know more, but it seems to me that intelligence 
agencies always trade with one another. And any information 
provided to the United States would be in the expectation of 
requiring something more valuable in return.
    Mr. Perry. Fair enough.
    Alright. So you have Georgia, you have Ukraine, you have 
Syria, but it is a little bit of a different circumstance, in 
my opinion. We opened the door for Russia to go in, as opposed 
to Russia creating the opportunity.
    With the diminishing time that I have, you have, like I 
said, Georgia and Ukraine in particular. I would say, who is 
next based on the model that Russia has used of creating the 
problem and then the insurgency and so on and so forth and 
fomenting a problem and then going in at some point and 
essentially just kind of taking over and creating a lot more 
discord?
    And then the other question is, in the China, Russia, North 
Korea gambit, if China decides that they are going to kind of 
start choking off North Korea economically, Russia will no 
doubt, will no doubt fill the void. What should our action be 
at that time?
    So those two questions, who is next and what action should 
we be contemplating?
    Mr. Clarke. Sir, I would say from--and again, I am a 
terrorism expert and I focus mostly on the Middle East, but 
from my broader reading, I would say I would be concerned about 
Moldova or one of the countries in the Baltics from a NATO 
purview.
    Mr. Cornell. Congressman, I think Russia is not finished in 
either Georgia or Ukraine, particularly in Georgia. The aim of 
the invasion in 2008 was not just to grab two pieces of land, 
Russia grabbed those pieces of land when it failed to achieve 
regime change, which Sergey Lavrov told Condoleezza Rice on the 
phone he wanted Saakashvili to go. Russia failed in achieving 
regime change.
    Right now, Russia has, if you will, they have seen that 
because of a vacuum left by the United States in the Middle 
East they haven't really paid so much attention to the post-
Soviet space in the past years. They have set their sights 
further to play an outsize role in areas of the Middle East and 
in Europe where the United States has normally been, so to 
speak, more influential.
    At some point I wouldn't at all be surprised if they return 
to the South Caucasus either by targeting Georgia again or, as 
we saw examples of in April 2016, of fomenting a renewed war 
between Armenian and Azerbaijan that would enable them to move 
in to control the whole South Caucasus, which forms the access 
route for the United States and Europe into Central Asia and 
Afghanistan.
    Mr. Wilson. Thank you, Congressman Perry. And actually 
Ranking Member Keating has some input for you about the 
Tsarnaev brothers.
    Mr. Keating. Just briefly, I don't want to take other 
members' times, but being familiar myself with that issue, 
Russia did indeed inform U.S. intelligence, including the FBI 
and CIA, of their concern. And they also asked our cooperation 
in giving them information because they perceived Tamerlan 
Tsarnaev as a threat and wanted the U.S. to give the 
information back. That is part of it. Thank you for allowing me 
to----
    Mr. Wilson. Right. And thank you, Congressman Keating, for 
your very interesting input on that.
    And we now proceed to Congressman Brendan Byrne of 
Pennsylvania.
    Mr. Boyle. Well, I am Brendan Boyle. Brendan Byrne was 
Governor of New Jersey. And Bradley Byrne is a colleague from 
Alabama.
    Mr. Wilson. Well, it is a southern pronunciation.
    Mr. Boyle. Well, thank you.
    And thank you to our witnesses for this rather interesting 
hearing for various reasons.
    A few different points. The first is I had the opportunity 
this weekend to meet Yevgenia Albats, who is one of the few 
remaining truly independent journalists in Russia, and to hear 
from her firsthand about what it is like to try to be part of a 
free press, a rather dwindling free press in Russia, and it was 
eye opening; also sobering.
    She is in the United States this week doing a fellowship at 
the University of Pennsylvania. If you have or anyone has had 
the opportunity to watch the excellent two-part series by 
``Frontline'' called ``Putin's Revenge,'' you will see her as 
well as a number of others that make quite clear Putin's 
intentions and actions.
    The second point I want to raise is something that is 
always in the back of my mind any time we discuss Russia. In 
1989, when the Berlin Wall fell, in East Germany, stationed 
there, was a KGB agent by the name of Vladimir Putin. He would 
go on to call the fall of the Soviet Union the single largest 
geopolitical catastrophe of the 20th century.
    So any time, again, that we discuss Russia, we should keep 
that if not in the back of our mind, certainly the forefront, 
that that is the prism through which he views the U.S.-Russia 
relationship.
    Now, I was going to ask Mr. Carpenter a question about 
something he pointed out in his written testimony. I will open 
that up to anyone who wants to comment. In his testimony he 
outlined quite well Russia's disregard for civilians in air 
strikes in Syria. In fact, according to Physicians for Human 
Rights, 90 percent--90 percent--of the attacks against 
hospitals and medical personnel were conducted by Russia and 
the Assad regime.
    A, do you agree with this statistic from the Physicians for 
Human Rights? And second, how could anyone reasonably argue 
that Russia could possibly be an ally when it comes to 
counterterrorism when clearly their definition and our 
definition are quite different?
    Mr. Clarke. I would have to look at the data myself, but 
that is not really a surprising figure given what we know of 
the current situation in Syria, and I think just another reason 
to underscore why we should keep the Russians at arm's length 
in Syria and be very, very reticent of cooperating with Russia 
in the CT space.
    Mr. Cornell. Congressman, I have no doubt--no reason to 
doubt that statistic.
    I think an important point when we talk about regimes 
abroad is there are a lot of authoritarian regimes. Now, there 
are authoritarian regimes that we can work with because that is 
the reality of the world. There are others that we should not 
work with.
    And that brings back to my mind the brilliant essay by 
Jeane Kirkpatrick back in the late 1970s about dictatorships 
and double standards and I think we should apply a similar kind 
of thinking today.
    If you look at various authoritarian regimes, what is their 
ideology? Are they fundamentally opposed to U.S. interests in 
the world? And are they fomenting anti-American opinions and 
values among their own population? Clearly, that is the case in 
Russia.
    Whereas there are others, we can talk about many regimes 
that we work with that are also authoritarian, but they may 
allow their young people to form their own opinions and don't 
necessarily point in an anti-American direction or work to 
undermine the interests of the United States abroad.
    I think in those cases we should work with authoritarian 
regimes because we may even improve the situation in those 
countries by working with them, rather than standing out and 
hectoring them and pointing fingers at them.
    But when dealing with regimes that are so obviously 
domestic--just switch on RT or Sputnik and you find out the 
spewing out of anti-American propaganda and outright lies that 
is coming out of Russia, and they are doing that for a reason. 
And we have to keep that in mind.
    Mr. Boyle. I only have 30 seconds left, so I just want to 
switch very briefly to Hezbollah, because I recently had an 
amendment as part of legislation we passed that addressed 
Russian support for Hezbollah.
    Russia has transferred weapons to Hezbollah, provided air 
cover through air strikes for Hezbollah foot soldiers, and 
protected Hezbollah-held territory with Russian air defense. 
Could any of you talk a little bit about Russia's motivations 
here for this strategic support for Hezbollah?
    Mr. Clarke. Sure, Congressman. I have written a lot about 
Lebanese Hezbollah, including Lebanese Hezbollah's gains in 
Syria and what we expect Hezbollah to look like post-Syria. It 
has received a lot of training. It has experienced a lot of on-
the-ground tactical cooperation with the Russians; so working 
with a nation-state in support of the Assad regime.
    And I think Russia's main interest is not having to deal 
with its own military, but actually working through a proxy or 
a cutout, and a highly capable one, I might add, in Lebanese 
Hezbollah, to fight against various jihadist groups on the 
ground, to include ISIS.
    Mr. Boyle. Thank you. I yield back.
    Mr. Wilson. Thank you, Congressman Brendan Boyle.
    And we now proceed to Congresswoman Lois Frankel of 
Florida.
    Ms. Frankel. Thank you, Mr. Chairman. You got that right.
    Mr. Wilson. As an old friend, of course.
    Ms. Frankel. Thank you.
    First of all, gentlemen, thank you all for being here. This 
has been a very interesting conversation or discussion today.
    I am going to get back to the subject matter of this 
hearing, ``Russia: Counterterrorism Partner or Fanning the 
Flames?'' I want to start with two questions and maybe I will 
get a chance to ask another one.
    The first is, I would like to know, what do you think are 
the implications, if any, of our President not recognizing or I 
think denying Russian interference with our election, despite 
the fact that our intelligence community unanimously has said 
there is interference? That is number one.
    Number two, in my effort to be bipartisan in some sense, I 
would like you to give me your opinion of how a Russian 
involvement in the Iran agreement and, for example, removing 
chemical agents from Syria plays into your opinion that there 
should be no cooperation.
    And then, I think, I guess, I do have a third question, 
which is could you explain what is the difference between, I 
think you said, we should communicate but not cooperate?
    Mr. Cornell. Congresswoman, with regard to the election 
issues, it is not my area of research. The only thing I would 
like to point out is I think everybody should understand that 
it is not about the support for a particular person or against 
a particular person, but an effort to undermine the legitimacy 
of the United States and its political system both at home and 
abroad, and it is unfortunate that that becomes a partisan 
issue where it shouldn't be.
    I think on the issues of Syria and Iran, when we talk about 
cooperation on counterterrorism, and several of us have said 
that we are skeptical of that notion, it doesn't mean we 
shouldn't have diplomatic relations with Russia. 
Counterterrorism cooperation is something much deeper. It is 
about intelligence sharing, actual joint operations, which 
would send exactly the wrong signal to Russia, particularly in 
view of their other activities.
    Now, I think Iran and Syria fall into that category. I 
think, unfortunately, the previous administration opened the 
door, as was said by one of the Congressmen earlier, for Russia 
to take a position in the Middle East that it has not 
traditionally had. A colleague of mine calls Mr. Putin's regime 
the vacuum cleaner. Wherever they find a vacuum in 
international politics they fill that vacuum. And we have to 
make sure we don't create that type of vacuum for them.
    On Iran, the only thing I would say, that yes, the Russians 
were partly cooperative in the Iranian nuclear agreement. They 
were also the force that helped bolster the Iranian nuclear 
program to begin with, beginning with all the Iranian nuclear 
reactors that they have built and all the material that they 
have sold to Iran.
    Ms. Frankel. Did anyone else want to respond? If not, I 
have another question.
    Mr. Saradzhyan. The cases you pointed out are cases, in my 
view, that show that when it is in Russia's interest it 
cooperates with the U.S. on issues. It is in Russia's interest 
to prevent proliferation of nuclear weapons, and therefore it 
is in Russia's interest to reach an agreement with Iran on that 
issue if it puts constraints on Iran's ability to acquire 
nuclear weapons.
    But if Russia were to choose between a diplomatic solution 
or a conflict with a nuclear weapon state, it would choose a 
diplomatic solution, even if it doesn't work. So Russia would 
not support the military operation against North Korea.
    Ms. Frankel. Alright. Let me just go to my last question. 
One of my colleagues asked about, I think, what are the do's 
and the don't's of our communications or our interaction with 
Russia. I think Mr. Carpenter gave us some don't's. Does 
anybody have some do's?
    Mr. Clarke. Trust in God, but lock your car. I mean, I 
think we should be open minded with the relationship with 
Russia, but also very guarded. So, I mean, I know that sounds 
contradictory, but I don't think we should completely shut off 
the relationship, we should be highly skeptical, and as I noted 
earlier, I think very measured and very judicious.
    Ms. Frankel. Alright. Thank you very much.
    I yield back.
    Mr. Wilson. Thank you, Congresswoman Frankel.
    We now proceed to Congresswoman Norma Torres of California.
    Mrs. Torres. Thank you, Mr. Chairman.
    Mr. Clarke, I have another saying: Pray for the best, but 
plan for the worst.
    Overall, I think terrorism is a serious threat to our 
national security and we need partners, allies, to help us 
fight terror and protect our homeland. Fortunately, we have 
some great allies in Europe, in the Middle East, and in Latin 
America who share our interests and our common values and human 
decency.
    Russia, on the other hand, does not share any of that. 
Russia certainly does not share our values or human decency.
    I am sorry that Dr. Carpenter is no longer here, but I am 
hoping, Dr. Cornell, you can answer or you can try to address 
this issue.
    Can you go into greater detail about corruption in the 
Russian Government? What is the impact of that corruption on 
the countries that Russia is currently involved in?
    And I don't know if we speak about Russia in the same tone 
as we would speak about Putin since you have said that he is 
worth in the billions.
    Mr. Cornell. Congresswoman, I think there are two aspects. 
One of course, which is well known, I would only point to Karen 
Dawisha's book about Putin's kleptocracy, which details the 
rise of the system in detail.
    I think the more important point, as we look at Russia's 
behavior on the international scene, is that Russia utilizes 
corruption as an instrument of statecraft. As I mentioned 
previously, Russia has its toolbox with everything from cyber, 
to military aggression, to economic sanctions, and everything 
in between, that they can use.
    Corruption is one of those elements. And as I have done for 
many years, looked at Russian foreign policy, especially toward 
the Independent States of the former Soviet Union, I think we 
find very clearly that one of the reasons they are against the 
development of democratic institutions and accountability in 
those states is because they prefer to be able to deal, to 
build a sphere of influence, by having weak, corrupt semi-
authoritarian governments in those countries, which are 
answerable to Russia because of the corrupt deals they have 
with Russia, rather than be answerable--accountable to their 
own people.
    And I think you see this in Russia, the state of Russia. 
You see it also, obviously, in Russian corporations, Gazprom 
being the most important example, that are able to enter 
markets in a way that obviously American companies cannot do by 
the use of corruption, coercion, and intimidation.
    Mrs. Torres. So in other words, it is a Russian way of 
life.
    Mr. Cornell. I think it is Mr. Putin's regime's way of 
life. As you may have seen in the past couple of months, there 
are growing protests, public protests in Russia, by truck 
drivers and by other groups in society against the system in 
which they live. Because, as I mentioned previously, this is a 
regime, I wouldn't quite call it on the ropes, but this is a 
regime that is very vulnerable economically as a result of its 
overreliance on oil, as a result of its corruption and 
kleptocracy, which is based on stealing money rather than 
investing money into the society.
    Mrs. Torres. Which is why I really like to speak about the 
Russian people in a different way that we would speak about the 
Russian Government and their current leader.
    Mr. Cornell. I absolutely agree, Congresswoman. The only 
caveat I would say is that people are vulnerable to propaganda. 
Propaganda exists for a reason, which is that it works. And 
with the constant anti-American propaganda coming out of the 
Russian media, that unfortunately affects the opinion of the 
Russian people and will do so for years to many could.
    Mrs. Torres. Let me try to get another question.
    Dr. Clarke, do you think that Russia's information war 
could expand to other parts of the world beyond Europe and the 
United States?
    For example, one of our closest allies and neighbors here 
in the Western Hemisphere, Mexico, they have a pretty large 
election, a national election coming up next year. What do you 
think are the odds of Russia moving in to influence that 
election the way they influenced our election last year?
    Mr. Clarke. So I think--and my colleagues, Dr. Christopher 
Paul and Dr. Miriam Matthews, have a really great piece on this 
called ``The Russian Firehose of Falsehood,'' that is a really 
excellent look at what Russia is doing in the information 
operation space.
    And I think the odds are quite high simply because it has 
worked, and we have seen it work. And so when something works, 
the recipe is usually, yes, more of that. So I would not be 
surprised to see Russia meddling in other areas, as well, 
beyond its traditional sphere of influence.
    Mrs. Torres. Thank you. And I yield back.
    Mr. Wilson. And thank you, Congressman Torres.
    And now Congressman Brad Sherman of California, who was my 
colleague yesterday at a conference here in Washington, a soul 
mate.
    Mr. Sherman. Thank you.
    I would point out that, especially after the fall of the 
Soviet Union, the U.S. gratuitously took anti-Russian 
positions. Wherever there was a dispute over territorial 
integrity versus self-determination, in each case we came out 
against the Russian position, whether that be Kosovo or 
northern Kosovo or the border regions of Croatia, et cetera.
    That being said, I don't think any of us is surprised. We 
have to do business with Russia. But we shouldn't be fooled. 
And don't only lock your car, Dr. Clarke, get an alarm, park 
under the light, et cetera.
    The Muslim world is in a three-way civil war between 
moderate Sunnis, extremist Brotherhood-influenced Sunnis, and a 
Shiite alliance based in Tehran. You have got over 20 million 
mostly Sunni Muslims in Russia, yet Russia has decided to take 
the Shiite position.
    Is there any effort by Russia's over 20 million Sunni 
Muslims to get their country to be less accommodating to the 
Shiites and more accommodating to the Sunnis?
    Mr. Cornell. Congressman, I think there are growing 
frustrations among Russia's Sunni Muslim population on this 
issue. I think, however, that most of these people--and 
actually most of the people in Russia's neighborhood continue 
to be dominated by Russian-controlled media, state-controlled 
media, which means that they are not--I don't think they fully 
have the same information space as we do, to put it mildly.
    Mr. Sherman. Well, they know that the Russian Government is 
supporting the Alawites in Syria. They know that the Russian 
Government is friendly toward Tehran. They know there is a 
Shiite-Sunni conflict. Is this fine with the imams among the 
Tatars and Chechnyans and others?
    Mr. Cornell. Congressman, I think that is one of the 
reasons why so many young people of Muslim origin in Russia are 
being recruited into jihadi groups.
    I would also point out that we very often talk about 
Central Asia as a locus of radicalization. In fact, all of that 
radicalization takes place outside of Central Asia. Over 85 
percent of the Central Asian recruits into ISIS and other 
jihadi groups in Syria and Iraq have been radicalized while 
being labor migrants in Russia, not in their home countries, 
and that points to a serious problem there.
    Mr. Sherman. I mean, there was a man who came from 
Uzbekistan to the United States and he radicalized here as far 
as we can tell.
    Mr. Cornell. Yes, yes.
    Mr. Sherman. And is Russia more friendly with the Shiites 
because they don't pose a radicalization threat? It would be 
hard for Iran to emerge as a leader of Sunni Muslims in Russia 
or anywhere in their near abroad. Have they intentionally 
picked the side that has the least appeal for their own 
Muslims?
    Mr. Cornell. Sir, that may be a contributing factor. I 
think the main factor is that Iran has been a strategic partner 
for Russia because of its posture against the United States in 
the Middle East, and because they early on in the 1990s joined 
forces in preventing the growth of U.S. influence in the 
neighborhood of Russia, especially in Central Asian and the 
Caucasus, Iran being in the south of the Caspian Sea, Russia in 
the north, trying to thwart U.S. influence in that region 
between them.
    It is a purely geopolitical interest that predates the real 
big conflict between Sunnis and Shias.
    Mr. Clarke. I would say ditto for Syria, a traditional 
longstanding Cold War ally, as well, and long-time purchaser of 
Russian weapons.
    Mr. Sherman. And is our broadcasting to the Russian people 
effective on these issues?
    Dr. Cornell.
    Mr. Cornell. Sir, I just call the attention to studies by 
the U.S. Government itself that have found foreign broadcasting 
to be very subpar. I think there is a serious problem in the 
efforts by the United States to reach out to communities that 
are potentially interested in hearing the American viewpoint on 
things in the world.
    Mr. Sherman. Is this because our technology doesn't get the 
message onto their device, whether it be computer or radio, or 
because our message is lame, or just because we are not 
believed?
    Mr. Cornell. I think it is the two first ones. I think the 
message needs serious improvement. I think also, if we look at 
the staffing of the radios and TV stations that we operate, 
they are heavily operated by people who are exiles from their 
own countries who have lost touch with their countries many 
years ago. I think there are many aspects to be looked at 
there.
    Mr. Sherman. And are we as effective on the Internet as we 
are--I mean, there is a tendency for the government to lag 
behind technology. Are we doing as much as we should on the 
Internet as opposed to radio broadcasting, the technology of 
the 1970s, where we at least have a bureaucracy that is into 
that? What about the Internet?
    Mr. Clarke. So, I think this falls into the general sphere 
and extends to our areas to counter violent extremism or 
prevent terrorism writ large. We are very good at the kinetic 
aspects of CT, tanks, guns, bombs. We have for too long put off 
countering the narrative as the softer side of counterterrorism 
and we have seen with the current conflict with the Islamic 
State that we have got a long way to go.
    Mr. Sherman. My time has expired. I thank the chairman for 
staying late and----
    Mr. Wilson. And thank you, Mr. Sherman.
    I want to thank Ranking Member Keating, all of our 
witnesses today, thank you for being here, and the professional 
staff of the Foreign Affairs Committee. The United States is 
fortunate to have such dedicated personnel.
    Thank you very much, and we are adjourned.
    [Whereupon, at 4:20 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record
         
         
         
         
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
         
         
    
                                 [all]
</pre></body></html>
